VISA PLATINUM SECURED
VISA PLATINUM REWARDS SECURED/BUSINESS VISA
VISA SECURED/STUDENT VISA SECURED
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum Secured

1.99% to 4.99% Introductory APR, for qualifying members,
for a period of 12 billing cycles, based on your creditworthiness.

After that, or if you do not qualify for the Introductory APR, your APR

9.24% to 17.24%

will be
, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Visa Platinum Rewards Secured

2.99% to 5.99% Introductory APR, for qualifying members,
for a period of 12 billing cycles, based on your creditworthiness.

After that, or if you do not qualify for the Introductory APR, your APR

10.24% to 18.24%

will be
, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Business Visa

1.99% to 6.99% Introductory APR, for qualifying members,
for a period of 12 billing cycles, based on your creditworthiness.

After that, or if you do not qualify for the Introductory APR, your APR
will be

10.99% to 18.00%, based on your creditworthiness.

Visa Secured

9.99% to 17.99% when you open your account, based on
your creditworthiness.

Student Visa Secured

2.99% to 11.99% Introductory APR, for qualifying members,
for a period of 12 billing cycles, based on your creditworthiness.

After that, or if you do not qualify for the Introductory APR, your APR

9.99% to 17.99%

APR for Balance Transfers

will be
, based on your creditworthiness.
Visa Platinum Secured
1.99% to 4.99% Introductory APR, for qualifying members, for a period
of 12 billing cycles, based on your creditworthiness.
After that, or if you do not qualify for the Introductory APR, your APR
will be 11.24% to 18.00%, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

000000 (MXC4XX CCM003)

SEE NEXT PAGE for more important information about your account.

Visa Platinum Rewards Secured
2.99% to 5.99% Introductory APR, for qualifying members, for a period
of 12 billing cycles, based on your creditworthiness.
After that, or if you do not qualify for the Introductory APR, your APR
will be 12.24% to 18.00%, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.
Business Visa
1.99% to 6.99% Introductory APR, for qualifying members, for a period
of 12 billing cycles, based on your creditworthiness.
After that, or if you do not qualify for the Introductory APR, your APR
will be 12.99% to 18.00%, based on your creditworthiness.
Visa Secured
11.99% to 18.00% when you open your account, based on your
creditworthiness.
Student Visa Secured
2.99% to 11.99% Introductory APR, for qualifying members, for a
period of 12 billing cycles, based on your creditworthiness.

APR for Cash Advances

After that, or if you do not qualify for the Introductory APR, your APR
will be 11.99% to 18.00%, based on your creditworthiness.
Visa Platinum Secured
1.99% to 4.99% Introductory APR, for qualifying members, for a period
of 12 billing cycles, based on your creditworthiness.
After that, or if you do not qualify for the Introductory APR, your APR
will be 11.24% to 18.00%, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.
Visa Platinum Rewards Secured
2.99% to 5.99% Introductory APR, for qualifying members, for a period
of 12 billing cycles, based on your creditworthiness.
After that, or if you do not qualify for the Introductory APR, your APR
will be 12.24% to 18.00%, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.
Business Visa
1.99% to 6.99% Introductory APR, for qualifying members, for a period
of 12 billing cycles, based on your creditworthiness.
After that, or if you do not qualify for the Introductory APR, your APR
will be 12.99% to 18.00%, based on your creditworthiness.
Visa Secured
11.99% to 18.00% when you open your account, based on your
creditworthiness.
Student Visa Secured
2.99% to 11.99% Introductory APR, for qualifying members, for a
period of 12 billing cycles, based on your creditworthiness.
After that, or if you do not qualify for the Introductory APR, your APR
will be 11.99% to 18.00%, based on your creditworthiness.
000000 (MXC4XX CCM003)

Penalty APR and When it Applies

18.00%
This APR may be applied to your account if you:
- Make a late payment

How to Avoid Paying Interest on Purchases
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

How Long Will the Penalty APR Apply? If your APRs are increased
for this reason, the Penalty APR will apply until you make six
consecutive minimum payments when due.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

None
3.00% of the amount of each balance transfer (Maximum Fee: $300.00)
3.00% of the amount of each cash advance (Maximum Fee: $300.00)
2.00% of each transaction in U.S. dollars
Up to $15.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Visa Platinum Secured, Visa Platinum Rewards Secured, Business Visa, and Student Visa Secured – Promotional
Period for Introductory APR: The Introductory APR for purchases, balance transfers, and cash advances will apply to
transactions posted to your account during the first 12 months following the opening of your account.
Visa Platinum Secured, Visa Platinum Rewards Secured, Business Visa, and Student Visa Secured – Loss of
Introductory APR: We may end your Introductory APR for purchases, balance transfers, and cash advances and apply
the prevailing non-introductory APR if you are 60 days late in making a payment.
Application of Penalty APR: Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making
a payment.
Effective Date:
The information about the costs of the card described in this application is accurate as of March 1, 2016.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee

$15.00 or the amount of the required minimum payment, whichever is
less, if you are 15 or more days late in making a payment.
Returned Payment Fee
$25.00 or the amount of the required minimum payment, whichever is
less.
Credit extended under this credit card account is secured by various personal property and money including, but
not limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral
for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings.

000000 (MXC4XX CCM003)

